No. ______
In the

Supreme Court of the United States
__________________
PAUL ANTHONY VALDERAS,
Petitioner,
v.
CITY OF LUBBOCK, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
__________________
PETITION FOR WRIT OF CERTIORARI
__________________
DANIEL A. DAILEY
Counsel of Record
Chief Litigation Counsel
KINGDOM LITIGATORS, INC.
A PUBLIC INTEREST LAW FIRM
3131 McKinney Avenue, Suite 600
Dallas, Texas 75204
Tel: 214-422-9350
E-Mail: ddailey@kingdomlitigators.com
Attorney for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether an officer on the scene constrained by what
he observes to use any force creates a reasonable
inference that deadly force is excessive?

ii
LIST OF PARTIES
In accordance with Supreme Court Rule 14.1(b), the
undersigned counsel of record certifies that the
following listed persons and entities have an interest in
the outcome of this case. These representations are
made so that the Justices of this Court may evaluate
possible disqualification or recusal.
1) Paul Anthony Valderas, Petitioner, PlaintiffAppellant below
2) Daniel A. Dailey, KINGDOM LITIGATORS, INC. A
PUBLIC INTEREST LAW FIRM
3) Billy Mitchell, Respondent, Defendant-Appellee
below
4) City of Lubbock, Respondent, Defendant-Appellee
below
5) David Kerby, Kerby & Wade
6) Camie Wade, Kerby & Wade
7) Jeff Hartsell, City of Lubbock Attorney’s Office

iii
STATEMENT OF RELATED PROCEEDINGS
• Valderas v. City of Lubbock, et al., No. 18-11023
(5th Cir.) (Opinion of the Fifth Circuit Court of
Appeals affirming the Northern District of
Texas.) (May 21, 2019)
• Valderas v. City of Lubbock, et al., No. 5:17-CV245 (N.D. Texas) (Order from the Northern
District of Texas granting Respondent’s motion
for summary judgment.) (July 2, 2018)
There are no additional proceedings in any court
that are directly related to this case.

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED. . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
A. The Shooting . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. The Training . . . . . . . . . . . . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING THE PETITION . . . 10
I. Under Graham, An Officer Constrained to Use
Any Force Necessarily Creates A Reasonable
Inference That Deadly Force Is Excessive—
Otherwise, Graham is Obsolete. . . . . . . . . . . . . 13
A. Lower Courts Struggle With The Evolution
From A Subjective Good Faith Standard To
An Objective Reasonableness Standard. . . . 14
i. Qualified Immunity . . . . . . . . . . . . . . 14
ii. Excessive Force . . . . . . . . . . . . . . . . . . 15

v
1. There Is A Split Of Authority. . . . . . . . . . 16
2. The Fifth Circuit Is Unpersuaded By
Graham. . . . . . . . . . . . . . . . . . . . . . . . . . . 19
B. Graham’s Objective Standard Envisioned
Paul Valderas v. City Of Lubbock. . . . . . . . . 21
C. The Only Logical Inference Is That Sgt.
Billingsley Did Not Fire Because It Was
Unreasonable. . . . . . . . . . . . . . . . . . . . . . . . . 24
II. The Fifth Circuit’s Opinion Sets A Dangerous
and Deadly Precedent. . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(May 21, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Texas, Lubbock Division
(July 2, 2018) . . . . . . . . . . . . . . . App. 16
Appendix C Complaint in the United States
District Court for the Northern
District of Texas, Lubbock Division
(October 25, 2017) . . . . . . . . . . . . App. 37
Appendix D U.S. Const. amend. IV . . . . . . . . App. 47
42 U.S.C.A. § 1983 . . . . . . . . . . . App. 47

vi
TABLE OF AUTHORITIES
CASES
A.D. v. California Highway Patrol,
No. C 07-5483 SI, 2009 WL 733872 (N.D. Cal.
Mar. 17, 2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Aipperspach v. McInerney,
963 F. Supp. 2d 901 (W.D. Mo. 2013), aff’d,
766 F.3d 803 (8th Cir. 2014). . . . . . . . . . . . . . . . 18
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 106 S. Ct. 2505, 91 L. Ed. 2d 202
(1986). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Ashcroft v. al-Kidd,
563 U.S. 731, 131 S. Ct. 2074, 179 L. Ed. 2d
1149 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Bennett v. Murphy,
274 F.3d 133 (3d Cir. 2002) . . . . . . . . . . . . . . . . 18
Bingue v. Prunchak,
512 F.3d 1169 (9th Cir. 2008). . . . . . . . . . . . . . . 18
Clem v. Cty. of Fairfax, VA,
150 F. Supp. 2d 888 (E.D. Va. 2001) . . . . . . . 3, 18
Cole v. Bone,
993 F.2d 1328 (8th Cir. 1993). . . . . . . . . . . . . . . 18
Diaz v. Salazar,
924 F.Supp. 1088 (D.N.M. 1996) . . . . . . . . . . . . 19
Ellis v. Wynalda,
999 F.2d 243 (7th Cir. 1993). . . . . . . . . . . . . . . . 24

vii
Estate of Smith v. Marasco,
430 F.3d 140 (3d Cir. 2005) . . . . . . . . . . . . . . . . 17
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . passim
Harlow v. Fitzgerald,
457 U.S. 800, 102 S. Ct. 2727, 73 L. Ed. 2d 396
(1982). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Hudspeth v. City of Shreveport,
270 F. App’x 332 (5th Cir. 2008) . . . . . . . . . . . . 26
Johnson v. D.C.,
528 F.3d 969 (D.C. Cir. 2008). . . . . . . . . . . . . . . 17
Johnson v. Glick,
481 F.2d 1028 (2d. Cir. 1973) . . . . . . 14, 15, 16, 20
Kelley v. O’Malley,
328 F. Supp. 3d 447 (W.D. Pa. 2018) . . . . . . . . . 17
Kisela v. Hughes,
138 S. Ct. 1148, 200 L. Ed. 2d 449
(2018). . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 13, 14
Kovacic v. Villarreal,
628 F.3d 209 (5th Cir. 2010). . . . . . . . . . . . . . . . 11
Lytle v. Bexar County., Tex.,
560 F.3d 404 (5th Cir. 2009). . . . . . . . . . . . . . . . 24
McLenagan v. Karnes,
27 F.3d 1002 (4th Cir. 1994). . . . . . . . . . . . . . . . 18
Remillard v. City of Egg Harbor City,
424 F. Supp. 2d 766 (D.N.J. 2006) . . . . . . . . 17, 20

viii
Salazar-Limon v. City of Houston, Tex.,
137 S. Ct. 1277, 197 L. Ed. 2d 751 (2017) . . . 5, 26
Salim v. Proulx,
93 F.3d 86 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . 17
Santana v. City of Hartford,
283 F. Supp. 2d 720 (D. Conn. 2003) . . . . . . 17, 20
Sevier v. City of Lawrence, Kan.,
60 F.3d 695 (10th Cir. 1995). . . . . . . . . . . . . . . . 19
Slattery v. Rizzo,
939 F.2d 213 (4th Cir. 1991). . . . . . . . . . . . . . . . 18
Tennessee v. Garner,
471 U.S. 1, 105 S. Ct. 1694, 85 L. Ed. 2d 1
(1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 19, 28
Tolan v. Cotton,
572 U.S. 650, 134 S. Ct. 1861, 188 L. Ed. 2d 895
(2014). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22, 23
Trent v. Wade,
776 F.3d 368 (5th Cir. 2015). . . . . . . . . . . . . . . . 11
Wood v. Strickland,
420 U.S. 308, 95 S. Ct. 992, 43 L. E. 2d 214
(1975). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 15
Young v. D.C.,
322 F. Supp. 3d 26 (D.D.C. 2018) . . . . . . . . . 17, 20
CONSTITUTION
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . . . . . 1

ix
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 28

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Paul Valderas (“Mr. Valderas”)
respectfully petitions this Court for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Fifth Circuit.
OPINIONS BELOW
The Fifth Circuit’s panel opinion is not reported but
is available at 2019 WL 2207293. Pet.App.1-15. The
district court’s order is not reported but is available at
2019 WL 2207293 under Docket Sheet filing 18-11023.
Pet.App.16-36.
JURISDICTION
The panel court of appeals entered judgment on
May 21, 2019. Mr. Valderas, invoking this Court’s
jurisdiction under 28 U.S.C. § 1254(1), has timely filed
this petition for a writ of certiorari within ninety days
of the United States Court of Appeals for the Fifth
Circuit’s judgment.
CONSTITUTIONAL PROVISIONS INVOLVED
The Fourth Amendment to the United States
Constitution provides in relevant part: “The right of the
people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and
seizures, shall not be violated.” U.S. Const. amend. IV.

2
INTRODUCTION
On January 26, 2017, two identically trained
officers, Sergeant Billingsley (“Sgt. Billingsley”) and
Officer Mitchell (“Respondent”), observed Mr. Valderas
discard a gun given to him by the LPD.1 Sgt. Billingsley
declined to respond with lethal force, but Respondent
fired five times. Three of these shots struck Mr.
Valderas in the back rendering him a paraplegic. If
both identically trained officers observed the same
“display,” but had two separate responses, and both are
objectively reasonable, then Graham is a fallacy. Mr.
Valderas had no chance of surviving that night. The
question presented has split lower courts across the
country and claimed hundreds of lives. Can both
officers’ use-of-force responses be reasonable?
This Court has never addressed this factual
scenario. As dissenting Justices Sotomayor and
Ginsburg noted, “[t]hat two officers on the scene,
presented with the same circumstances as Kisela, did
not use deadly force reveals just how unnecessary and
unreasonable it was for Kisela to fire four shots at
Hughes.” Kisela v. Hughes, 138 S. Ct. 1148, 1157, 200
L. Ed. 2d 449 (2018) (SOTOMAYOR, J. and
GINSBURG, J. dissenting) (internal citation omitted).
(“We analyze [the objective reasonableness] question
from the perspective of a reasonable officer on the
scene” (internal quotation marks omitted).) Id. “Rather

1

The Lubbock Police Department directed a confidential informant
to provide Mr. Valderas with a stolen gun in order to charge him
with possession of a firearm by a felon. (“Anderson called me to set
the whole Paul situation up.” ROA. 835-37, 1341).

3
than defend the reasonableness of Kisela’s conduct, the
majority sidestep[ped] the inquiry altogether…” Id.
As a result, lower courts across the country are
split. Indeed, some courts analyze the other officers’
conduct on the scene for reasonableness, while other
courts do not. Here, the Fifth Circuit made clear that
it is unpersuaded by Mr. Valderas’s plea under
Graham to analyze the reactions of both officers and to
allow a jury to decide which was reasonable.
Pet.App.12. This Court has never addressed the exact
scenario Graham envisioned when it established the
objective reasonableness test in 1989.
Why are courts split on applying Graham’s objective
standard? It is because if courts apply a reasonable
inference from an officer on the scene it could make
reasonable conduct unreasonable, or unreasonable
conduct reasonable. For example, Rodney King was
beaten by four cops with at least fourteen officers
present. Applying a reasonable inference from the
officers on the scene infers that Rodney King’s beating
was reasonable. The inverse is also true. For example,
in Fairfax, Virginia an officer stood trial who genuinely
believed that a mentally ill man was armed. The court
analyzed his partner’s reaction to use pepper spray and
denied summary judgment; however, a jury found for
the officer at trial. Clem v. County of Fairfax, VA, 150
F. Supp. 2d 888 (E.D. Va. 2001). Courts are not
choosing to defy Graham, however reasonableness
varies depending on the culture of the police
department.

4
The Fifth Circuit’s best attempt to explain the
question presented was the pure non sequitur
reasoning. The Fifth Circuit concluded that
Respondent’s reaction with lethal force was not
unreasonable simply because Respondent and Sgt.
Billingsley had “differing positions.” Pet.App.12. The
Fifth Circuit’s analysis is incorrect for two reasons.
First, the statement assumes that the differing
positions of the officers prevented a line-of-sight to Mr.
Valderas when there are no facts to support this
assumption. In fact, Sgt. Billingsley testified he had his
gun drawn, expected a gunfight, and moved to a
position to see Mr. Valderas with the gun, but he did
not fire. ROA. 1037. When asked why he did not fire,
Sgt. Billingsley claimed he could not remember what
he saw. ROA. 1044. However, Investigator Daniel
Merritt (“Officer Merritt”) came forward and confirmed
Mr. Valderas was discarding the gun. ROA. 1488.
Based on Sgt. Billingsley’s reactive training, he knew
lethal force was no longer authorized. Mr. Valderas
assures this Court it will not find a single fact in the
record to support the Fifth Circuit’s erroneous
conclusion.
Next, using ignoratio elenchi the Fifth Circuit
stated that Respondent’s use of deadly force does not
become unreasonable simply because Sgt. Billingsley
did not also use deadly force. Pet.App.12. To the
contrary, Respondent’s lethal force reaction was
unreasonable because he admitted he saw Mr.
Valderas discard the gun and witnessed the
termination of the threat. ROA. 1037. Respondent
knew his reaction was unreasonable because he

5
subsequently removed that testimony to obtain
summary judgment based on qualified immunity. ROA.
1037. A reasonable officer on the scene with SWAT
training observing the same display would not—and
did not—react by using lethal force.
If the Fifth Circuit’s holding stands, it will set an
extremely dangerous precedent because it proves that
it is legally and factually impossible to overcome
qualified immunity. Legally, Graham envisioned this
exact scenario. Courts must determine the
reasonableness of force from the perspective of an
officer on the scene. Both officers had identical
reactionary time, knowledge, training, and experience.
Legally, a jury must decide which officer’s conduct was
reasonable.
Factually, if an officer can manipulate material
facts to conform to cases wherein the lower courts
granted qualified immunity, then officers are entitled
to absolute immunity. Before Officer Merritt confirmed
that Mr. Valderas discarded the gun, Respondent
claimed he saw Mr. Valderas continuing to display the
weapon. ROA. 1488. After Officer Merritt came forward
with the truth, Respondent manipulated that portion
of his statement to obtain qualified immunity under
Salazar-Limon, 826 F.3d at 279, and he was successful.
Pet.App.10. The Fifth Circuit’s holding sets precedent
that allows officers to manipulate critical facts to
obtain qualified immunity, effectively rendering their
actions absolutely immune from a jury.
Against this backdrop, a jury must answer two
specific questions. First, whether Respondent saw Mr.
Valderas discard the gun. Next, whether a reasonable

6
police officer in the same situation would know that
Mr. Valderas discarded the gun. Both answers are
disputed because Respondent initially claimed he
witnessed the “display” but now claims he did not.
Second, the only logical inference is that Sgt.
Billingsley—a trained sniper, in fear for his life,
expecting a gunfight, with a line-of-sight—did not fire
his weapon was because he knew the threat was
terminated and that it was not reasonable to shoot.
Accordingly, Mr. Valderas urges this Court to grant
certiorari and resolve the split in the lower courts by
holding that courts must draw reasonable inferences
from similarly situated officers on the scene who are
constrained to use lethal force.
STATEMENT OF THE CASE
1. Factual Background. Mr. Valderas alleges
that Respondent, an officer with the Lubbock Police
Department (“LPD”), violated his Fourth Amendment
rights when Respondent used excessive force during his
arrest. ROA.7. Mr. Valderas failed to report to his
parole officer after he suffered a three-month drug
relapse, and an arrest warrant was issued. ROA. 136263.
A. The Shooting
On January 23, 2017, the LPD directed a
confidential informant (“CI”) to convince Mr. Valderas
he would be robbed and to equip him with a stolen gun.
ROA. 835-837, 1341. Later in the day, the CI went to
Mr. Valderas’s motel, waited until he was intoxicated,
and convinced him to take the stolen gun. ROA. 679-80.
Three days later, Respondent executed the plan to

7
apprehend Mr. Valderas and shot him three times in
the back. Pet.App.38.
The shooting occurred on January 26, 2017, after
the CI notified the LPD that Mr. Valderas was now
“armed.” Pet.App.3. Three officers for the LPD, Sgt.
Billingsley, Officer Merritt, and Respondent were on
the arrest team. Pet.App.3. While talking to the CI
through the passenger side window of a parked vehicle,
Mr. Valderas saw a brown Chevrolet Tahoe speeding
toward him head-on. Pet.App.3. Sgt. Billingsley was in
the driver’s seat. ROA. 98, 1016. Respondent was in the
passenger seat with Officer Merritt sitting directly
behind him. ROA. 98, 1016. Remembering the CI’s
prior warning, Mr. Valderas removed the gun from his
waistband, expecting to be robbed. Pet.App.3, 4.
However, after the CI noticed Mr. Valderas pull the
gun, she alerted him that the approaching vehicle was
actually undercover police officers. Pet.App.4. As the
officers exited their vehicle, Mr. Valderas discarded the
gun through the window to the CI and turned to run.
Pet.App.4.
Meanwhile, Sgt. Billingsley exited the driver’s side
of the vehicle and observed Mr. Valderas discard the
gun. ROA. 1037-38, 1043-44, 1063. Sgt. Billingsley did
not shoot. ROA. 1016-17. Officer Merritt exited the
vehicle but did not have a line-of-sight to fire, so he did
not shoot. ROA. 951-55, 958; Pet.App.6. Officer Merritt
confirmed that Mr. Valderas threw the gun in the car,
and there was no gun near Mr. Valderas after he was
shot. ROA. 951-55, 968.

8
In Respondent’s first sworn statement, he claimed
he exited the vehicle, stepped to the right, and yelled
“police,” but that Mr. Valderas continued displaying
the pistol. Pet.App.4. Respondent claimed he was
afraid for his life, so he shot Mr. Valderas three times
in the back. Pet.App.26. In Respondent’s affidavit in
support of his motion for summary judgment, he
removed the statement “Mr. Valderas continued
displaying the pistol” and instead claimed he could not
see Mr. Valderas discard the gun, so he shot in fear for
his life. Pet.App.26.
The surveillance video at 0.09 seconds depicts Mr.
Valderas discarding the weapon. ROA. 274. At 0.09
seconds, Respondent steps to the right and yells police.
ROA. 274. The video then shows Mr. Valderas turn to
run at the same moment Respondent fired five rounds
at the back of Mr. Valderas. Pet.App.2. Three of these
shots struck Mr. Valderas, permanently paralyzing
him. Pet.App.39.
B. The Training
a. Respondent
Respondent began his employment with the LPD in
2010 and was employed by the Houston Police
Department prior to moving to Lubbock. ROA. 868.
Since 2017, Respondent was assigned to the Lubbock
Police Special Operations Gang Unit where his duties
included tactical operations and gang member
apprehension. Id. Respondent went to basic SWAT
school with Sgt. Billingsley, but he did not make
SWAT. ROA. 868, 1109.

9
b. Sgt. Billingsley
Sgt. Billingsley is a certified police officer and
experienced SWAT team member. ROA. 1049. He also
has basic and advanced sniper training, as well as
various certifications in firearm training, including as
an advanced firearm instructor. ROA. 1049. Sgt.
Billingsley was an active duty marine for four years
and inactive reserves for a year prior to becoming an
officer with the LPD. ROA. 1023. To date, he has
served a little over 15 years with the LPD. ROA.
1023-24. Both Respondent and Sgt. Billingsley are
equally trained officers.
2. District Court. District Court. Mr. Valderas
filed a complaint against the City of Lubbock and
Respondent of the LPD in both his individual and
official capacity pursuant to 42 U.S.C. § 1983.
Pet.App.4. In his complaint, Mr. Valderas pleaded
violations of his Fourth Amendment rights against
Respondent for his use of excessive and lethal force.
Pet.App.4. Mr. Valderas pleaded that Respondent’s
use-of-force was objectively unreasonable because Mr.
Valderas did not pose an imminent threat of death or
serious bodily injury to Respondent, and neither of the
other two officers present with Respondent fired their
weapons. Pet.App.6.
The district court granted Respondent’s Motion for
Summary Judgment based on the affirmative defense
of qualified immunity. Pet.App.36. In its opinion, the
district court did not analyze Sgt. Billingsley’s reaction
to the same situation. Pet.App.1-15. Furthermore, the
district court found that Respondent had a “good-faith
belief that [Mr. Valderas] was still armed.” Pet.App.28.

10
Mr. Valderas timely filed a notice of an interlocutory
appeal to the Fifth Circuit. Pet.App.5.
3. Court of Appeals. On appeal, a panel of the
United States Court of Appeals for the Fifth Circuit
affirmed the district court. Pet.App.2, 14-15. In its
opinion, the Fifth Circuit stated, “…to the extent that
there is any inconsistency in [Respondent’s] testimony,
it has no bearing on the question of whether
[Respondent] saw or should have seen [Mr.] Valderas
discard the gun.” Pet.App.10 The Fifth Circuit was
unpersuaded. It stated, “[Respondent’s] decision to use
deadly force does not become unreasonable simply
because Sgt. Billingsley did not also use deadly force,
especially given the differing positions of the two
officers.” Pet.App.12. It is unclear from where in the
record the Fifth Circuit drew this conclusion. Sgt.
Billingsley and Respondent both testified to having a
line-of-sight on Mr. Valderas during the entire
encounter. ROA. 1037, 1487-88.
4. This petition followed.
REASONS FOR GRANTING THE PETITION
First, Graham envisioned this exemplar case. Two
experienced officers with identical training made
different use-of-force decisions when faced with an
identical circumstances. The only difference between
the two officers is that one officer fired five times, and
the other did not fire at all. If both reactions are
reasonable—as the Fifth Circuit contends—then
Graham is an impossible standard, and officers are
entitled to de facto absolute immunity masquerading as
qualified immunity. Fair notice mandates that this

11
Court declare that officers are entitled to absolute
immunity to properly caution citizens who encounter
the police and decrease oppressive litigation against
police officers.
To be clear, the instant case is not meant to
contemplate Respondent’s intentions, whether pure or
evil. Rather, this case turns on whether a reasonable
officer would know that the threat had been terminated
and that lethal force was not authorized (an officer’s
good intentions do not make objectively unreasonable
uses of force constitutional. Graham, 490 U.S. at 397).
Sgt. Billingsley knew the threat was terminated and
that lethal force was not authorized, so he was
constrained to shoot. This case is the quintessential
case for objectivity under Graham, but the Fifth Circuit
remains unpersuaded. Lower courts across the country,
including the Fifth Circuit, instead rely on the officer’s
“good faith belief.” (“Nothing in either statement differs
on [Respondent’s] ‘good faith’ belief that [Mr. Valderas]
was still armed…”)2 Pet.App.28. (emphasis added). As
a result, people are dying, and the tension between
citizens and police has intensified.
Mr. Valderas urges this Court to grant certiorari
because Graham envisioned Paul Valderas v. City of
Lubbock to determine objective reasonableness without
regard to intent. Yet, the outcome in this case is
2

The Fifth Circuit improperly applied a “good-faith” standard to
an assertion of qualified immunity and cited several of its own
Fifth Circuit cases in support. Pet.App.28. e.g. “Trent v. Wade, 776
F.3d 368, 376 (5th Cir. 2015) (citing Kovacic v. Villarreal, 628 F.3d
209, 211 (5th Cir. 2010).)” This explains why the district court
applied a good-faith standard. Pet.App.7.

12
inconsistent with the outcome that Graham envisioned.
This means that either Graham is impracticable, or the
Fifth Circuit egregiously misapplied the law.
Next, the Fifth Circuit and district court opinions
set a deadly precedent. Allowing police officers to
manipulate material facts to obtain qualified immunity
runs afoul of the purpose of qualified immunity, e.g.,
officers who make honest mistakes and need breathing
room. Ashcroft v. al-Kidd, 563 U.S. 731, 743, 131 S. Ct.
2074, 2085, 179 L. Ed. 2d 1149 (2011).
There is no dispute that Respondent deliberately
removed the testimony that established that he
observed Mr. Valderas discard the gun before opening
fire. Without explanation, the Fifth Circuit concluded,
“to the extent that there is any inconsistency in
[Respondent’s] testimony it has no bearing on the
question of whether [he] saw or should have seen [Mr.]
Valderas discard the gun.” Pet.App.10. If Respondent
is permitted to manipulate sworn testimony to obtain
qualified immunity, then Mr. Valderas’s lawsuit is
futile because Respondent is entitled to absolute
immunity.
Assuming Respondent saw Mr. Valderas discard the
gun, the issue goes back to Graham. The Fifth Circuit
granted Respondent qualified immunity because “the
events transpired in a matter of seconds, leaving
[Respondent] with little time to ‘realize’ that Mr.
Valderas no longer possessed a gun...” Pet.App.6, 11,
34. Under Graham, the question is whether a
reasonable officer on the scene—here, Sgt.
Billingsley—would have sufficient time to realize Mr.
Valderas no longer possessed the gun. The Fifth

13
Circuit, like many courts across the country, is
unpersuaded by Graham. Pet.App.12.
Lower court decisions have adversely impacted both
police officers and plaintiffs across the country because
some courts analyze the reactions of every officer on
the scene, while others remain unpersuaded. Mr.
Valderas urges this Court to review the instant case
because if the Fifth Circuit’s decision stands, Graham
is impracticable. (“Rather than defend the
reasonableness of Kisela’s conduct, the majority
sidesteps the inquiry altogether.” Kisela, 138 S. Ct. at
1157 (SOTOMAYOR, J. and GINSBURG, J.
dissenting).)
I. Under Graham, An Officer Constrained to Use
Any Force Necessarily Creates A Reasonable
Inference That Deadly Force Is Excessive—
Otherwise, Graham is Obsolete.
Some courts are persuaded that Graham requires
an analysis of all similarly situated officers on the
scene; while other courts, such as the Fifth Circuit, are
not persuaded. (“We are unpersuaded…[Respondent’s]
decision to use deadly force does not become
unreasonable simply because Sgt. Billingsley did not
also use deadly force, especially given the differing
positions of the two officers.”) Pet.App.12. Mr. Valderas
contends that the constrain to use lethal force is an
inference that should be drawn in favor of the nonmovant, especially when there was a specific action
that terminated the threat. (“That two officers on the
scene, presented with the same circumstances as
Kisela, did not use deadly force reveals just how
unnecessary and unreasonable it was for Kisela to fire

14
four shots at Hughes.” Kisela, 138 S. Ct. at 1157.
(SOTOMAYOR, J. and GINSBURG, J. dissenting).)
This is the precise objective standard that Graham
intended when it overturned Glick’s subjective test.
Johnson v. Glick, 481 F.2d 1028 (2d. Cir. 1973).
Accordingly, Sgt. Billingsley’s inaction alone
establishes a genuine question of reasonableness that
can only be resolved by a jury.
A. Lower Courts Struggle With The Evolution
From A Subjective Good Faith Standard To
An Objective Reasonableness Standard.
Historically, this Court has replaced the subjective
good faith standards for objective reasonableness
standards. The reason this Court overturned subjective
tests was to require a neutral analysis of an officer’s
use-of-force without regard to his specific
motivations—whether pure or evil. Understanding the
evolution of qualified immunity and excessive force is
critical to understanding the split of authority over the
last thirty years. Some courts still apply the subjective
good-faith standard to qualified immunity and often
intertwine that analysis with the excessive force
analysis.
i. Qualified Immunity
1) Wood v. Strickland
In 1975, this Court held that a government official
attempting to assert qualified immunity must “be
acting sincerely and with a belief that he is doing
right.” Wood v. Strickland, 420 U.S. 308, 321, 95 S. Ct.
992, 1000, 43 L. E. 2d 214 (1975). In Wood, this Court

15
noted that officials must be held accountable for all
“permissible intentions” and “knowledge of the basic,
unquestioned constitutional rights” on which the
official allegedly infringed. Id.
2) Harlow v. Fitzgerald
In 1982, Harlow overturned the previously
established good-faith immunity defense, which was
essentially absolute immunity for all government
officials. Harlow v. Fitzgerald, 457 U.S. 800, 102 S. Ct.
2727, 73 L. Ed. 2d 396 (1982). This Court held that
“governmental officials performing discretionary
functions generally are shielded from liability for civil
damages insofar as their conduct does not violate
‘clearly established’ statutory or constitutional rights of
which a reasonable person would have known.” Id. at
801.
ii. Excessive Force
1) Johnson v. Glick
In 1973, the Second Circuit held that the following
factors apply to the use-of-force analysis: 1) the need
for the application of force; 2) the relationship between
the need and the amount of force used; 3) the extent of
the injury inflicted; and 4) whether the force was
applied in good faith. Glick, 481 F.2d at 1033
(emphasis added). This remained the standard for over
a decade.
2) Graham v. Connor
In 1989, Graham overturned the longstanding Glick
test by requiring an objective inquiry into an officer’s

16
use-of-force, abrogating the subjective inquiry under
Glick. Graham, 490 U.S. at 387. Rather than rely on
the officer’s underlying intent or motivation, Graham
requires that an officer’s use-of-force be “objectively
reasonable.” Id. The court makes this judgment solely
from the perspective of “a reasonable officer on the
scene.” Id.
Under Graham, this Court provided broad
discretion for lower courts to determine the objective
reasonableness of force on a case-by-case basis for the
purpose of determining what a reasonable officer would
do. Graham, 490 U.S. at 396. The proper application of
Graham necessarily requires “careful attention to the
facts and circumstances of each particular case.” Id. at
396. Whether an officer’s use-of-force was objectively
unreasonable relies upon an objective analysis of “the
totality of the circumstances.” Tennessee, 471 U.S. at 9.
The purpose of assessing the totality of the
circumstances is to determine how a reasonable officer
on the scene would react with force—in identical
circumstances and with identical training, including
response time.
1. There Is A Split Of Authority.
Courts are split on whether the force reaction of
another officer on the scene is a reasonable inference to
be drawn in favor of either party. Failure to resolve
this issue exposed police officers to harassing lawsuits
and caused the deaths of hundreds of United States
citizens. Under the theoretical pretext of Graham,
lower courts still apply Glick. This issue is widespread
throughout the lower courts. Therefore, review on
certiorari is critical.

17
In the D.C. Circuit, there were multiple officers on
the scene, but only one officer fired. Young v. D.C., 322
F. Supp. 3d 26 (D.D.C. 2018). To determine the
reasonableness of the shooting officer’s reaction, the
court did not analyze the reactions of the other officers
on the scene. Id. The court found that the shooting
officer’s reaction was not reasonable. Id. (citing
Johnson v. D.C., 528 F.3d 969 (D.C. Cir. 2008)).
In the Second Circuit, there were two officers on the
scene, but only one officer fired. Santana v. City of
Hartford, 283 F. Supp. 2d 720 (D. Conn. 2003). To
determine the reasonableness of the shooting officer’s
reaction, the court did not analyze the reaction of the
other officer on the scene. Id. The court found that the
shooting officer’s reaction was reasonable. Id. (citing,
Salim v. Proulx, 93 F.3d 86, 90 (2d Cir. 1996).)
In the Third Circuit, there were two officers on the
scene, and both officers fired. Kelley v. O’Malley, 328
F. Supp. 3d 447 (W.D. Pa. 2018). To determine the
reasonableness of the shooting officer’s reaction, the
court analyzed both officers’ reactions. Id. The court
found that the officers’ reactions were reasonable. Id.
(citing Estate of Smith v. Marasco, 430 F.3d 140, 148
(3d Cir. 2005).)
In the Third Circuit, there were two officers on the
scene, but only one officer fired. Remillard v. City of
Egg Harbor City, 424 F. Supp. 2d 766 (D.N.J. 2006). To
determine the reasonableness of the shooting officer’s
reaction, the court did not analyze the reaction of the
other officer on the scene. Id. The court found that the
shooting officer’s reaction was not reasonable. Id.

18
(citing Bennett v. Murphy, 274 F.3d 133, 137 (3d Cir.
2002).)
In the Fourth Circuit, there were two officers on the
scene, but only one officer fired. Clem v. Cty. of Fairfax,
VA, 150 F. Supp. 2d 888 (E.D. Va. 2001). To determine
the reasonableness of the shooting officer’s reaction,
the court analyzed the reaction of the other officer on
the scene. Id. The court found that the shooting
officer’s reaction was not reasonable. Id. (citing
McLenagan v. Karnes, 27 F.3d 1002, 1006 (4th Cir.
1994); Compare, Slattery v. Rizzo, 939 F.2d 213, 216
(4th Cir. 1991).)
In the Eighth Circuit, there were fourteen officers
on the scene, but only seven officers fired. Aipperspach
v. McInerney, 963 F. Supp. 2d 901 (W.D. Mo. 2013),
aff’d, 766 F.3d 803 (8th Cir. 2014). To determine the
reasonableness of the shooting officers’ reaction, the
court did not analyze the reactions of the other officers
on the scene. Id. The court found that the shooting
officers’ reactions were reasonable. (citing Cole v. Bone,
993 F.2d 1328, 1334 (8th Cir. 1993).)
In the Ninth Circuit, there were multiple officers on
the scene, but only one officer fired. A.D. v. California
Highway Patrol, No. C 07-5483 SI, 2009 WL 733872
(N.D. Cal. Mar. 17, 2009). To determine the
reasonableness of the shooting officer’s reaction, the
court did not analyze the reactions of the other officers
on the scene. Id. The court found that the shooting
officer’s reaction was not reasonable. Id. (citing Bingue
v. Prunchak, 512 F.3d 1169, 1175 (9th Cir. 2008).)

19
In the Tenth Circuit, there were multiple officers on
the scene, but only one officer fired. Diaz v. Salazar,
924 F.Supp. 1088 (D.N.M. 1996). To determine the
reasonableness of the shooting officer’s reaction, the
court analyzed the reactions of the other officers on the
scene. Id. The court found that the shooting officer’s
reaction was not reasonable. Id. (citing Sevier v. City of
Lawrence, Kan., 60 F.3d 695, 699 (10th Cir. 1995).)
The cases above are illustrative of the issues facing
the entire country. The reasonableness standard is
different in every jurisdiction. Police officers cannot
know which standard will be applied because the lower
courts are widely inconsistent. Meanwhile, people are
dying at the hands of police because the standard of
reasonableness has become impossible to decipher (as
all parties predicted in Tennessee). (“Nor do we agree
with petitioners and appellant that the rule we have
adopted requires the police to make impossible, splitsecond evaluations of unknowable facts. We do not
deny the practical difficulties of attempting to assess
the suspect’s dangerousness.” Tennessee, 471 U.S. at
20 (internal quotations omitted).) Only the Supreme
Court can bring uniformity to the lower courts.
2. The Fifth Circuit Is Unpersuaded By
Graham.
The Fifth Circuit’s position is clear:
“We are also unpersuaded by Valderas’s
argument that the fact that Sgt. Billingsley did
not use deadly force establishes that Officer
Mitchell’s decision to use such force was
unreasonable…Officer Mitchell’s decision to use

20
deadly force does not become unreasonable
simply because Sgt. Billingsley did not also use
deadly force…”
Pet.App.12.
However, Graham’s purpose was to assess the
totality of the circumstances to determine what a
reasonable officer on the scene would consider a
reasonable use-of-force—in identical circumstances and
with identical training, including response time.
Graham, 490 U.S. at 387. The Fifth Circuit’s opinion
directly conflicts with Graham’s intent because the
Fifth Circuit is unpersuaded to use Sgt. Billingsley’s
reaction not to fire as part of the reasonableness
analysis. Again, this is a nationwide issue that can only
be addressed by the Supreme Court of the United
States.
Across the Fifth Circuit, courts essentially apply a
good faith subjective test to excessive force claims. For
example, in this case, the district court only analyzed
Respondent’s decision to shoot. Just as in many cases
across the country, the district court ignored the
reaction of the only other officer on the scene with a
line-of-sight. (See e.g., Santana, 283 F. Supp. 2d,
Remillard, 424 F. Supp. 2d 766; Young, 322
F. Supp. 3d.) Instead, the district court applied Glick’s
good-faith standard in holding, “[n]othing in either
statement differs on [Respondent’s] good-faith belief
that [Mr. Valderas] was still armed, and that
[Respondent] had not seen [Mr. Valderas] drop the
weapon before he fired.” Pet.App.25. (emphasis added).

21
Mr. Valderas contends that evaluating the totality
of the circumstances was created specifically to
ascertain the reasonableness of an officer on the scene
in an identical circumstance. By ignoring Sgt.
Billingsley’s reaction in this case, the Fifth Circuit
inserted how a reasonable officer would react in similar
circumstances. (“The ‘reasonableness’ of a particular
use of force must be judged from the perspective of a
reasonable officer on the scene, rather than with the
20/20 vision of hindsight.” Graham, 490 U.S. at 396.)
Again, the Fifth Circuit remains unpersuaded by
Graham, and only this Court can address this
nationwide disagreement.
B. Graham’s Objective Standard Envisioned
Paul Valderas v. City Of Lubbock.
If this Court accepts the lower court’s entire
proposition3 as true, the only plausible reason Sgt.
Billingsley did not fire was because he saw Mr.
Valderas discard the weapon and realized the threat
had ended. The premise of Graham was to abrogate
any subjective intent, whether pure or evil. Instead,
courts must determine how a well-trained officer in
similar circumstances would—or did—react.
Here, Sgt. Billingsley’s background includes
certifications as an advanced sniper, firearms
instructor, and advanced firearms instructor. He was
also an “unofficial” commander on SWAT. ROA. 1114.
Sgt. Billingsley made it clear that LPD officers will not
shoot a fleeing felon. ROA. 1032. Sgt. Billingsley
3

Excluding the Fifth Circuit’s two fallacious reasoning discuss
supra at pg. 2.

22
testified that lethal force is only authorized if a fleeing
felon places an officer in immediate danger of death or
serious bodily harm and has a weapon in his hand.
ROA. 1032-1033. Sgt. Billingsley testified that he has
used lethal force in the past. ROA. 1033-1034. Against
this background, the Fifth Circuit strained for any
reason that Sgt. Billingsley did not fire. The Fifth
Circuit made two critical inferences, which were not
supported by the record nor argued by either party.
First, the Fifth Circuit inferred that because Sgt.
Billingsley was the driver, he did not have a line-ofsight to fire. Pet.App.12. This inference was conjured
by the Fifth Circuit with no reference to a single fact.
Indeed, this Court has repeatedly told the Fifth Circuit
that all reasonable inferences should be drawn in favor
of the non-movant. In Tolan v. Cotton, this Court
overturned the Fifth Circuit after the Fifth Circuit
affirmed the district court’s holding that the defendant
officer’s use-of-force was not unreasonable. Tolan v.
Cotton, 572 U.S. 650, 654, 134 S. Ct. 1861, 188 L. Ed.
2d 895 (2014). Rather than view all evidence in the
light most favorable to the non-movant, the Fifth
Circuit instead determined the “truth of the matter”
and resolved all central factual disputes in favor of the
movant. Id. at 656, citing Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 249, 106 S. Ct. 2505, 91 L. Ed. 2d
202 (1986).
Although this Court is “not equipped to correct
every perceived error coming from the lower federal
courts,” the Fifth Circuit remains steadfast in “clear
misapprehension of summary judgment standards even

23
after [this Court’s] precedent.” Tolan, 572 U.S. at 659
(internal quotations omitted).
Next, the Fifth Circuit erroneously inferred that
Sgt. Billingsley did not fire because when he exited,
Mr. Valderas was already collapsing. Pet.App.12.
However, Sgt. Billingsley never provided this
testimony. Sgt. Billingsley testified that after he exited
the vehicle, he moved to a position to better see Mr.
Valderas. ROA. 1074. When asked if he could have
fired on Mr. Valderas, Sgt. Billingsley testified, “I don’t
remember what I saw.”4 ROA. 1043-1044.
Yet, we know what Sgt. Billingsley saw because
Officer Merritt’s testimony confirmed that Mr.
Valderas threw the gun in the car. ROA. 1488. In his
testimony, Sgt. Billingsley stated that as he exited the
car, he saw Mr. Valderas with the gun. ROA. 1488. Sgt.
Billingsley, therefore, admitted to observing the same
“physical act.” ROA. 1488. A jury could conclude that
Sgt. Billingsley did not fire his weapon when he saw
Mr. Valderas with the gun because Mr. Valderas was
clearly discarding it through the window.

4

Later in the deposition, Sgt. Billingsley stated again, “when I’m
exiting I see the gun.” ROA. 1063. Plaintiff’s Counsel asked Sgt.
Billingsley again, “and at the moment [you] exited the vehicle and
observed [Mr. Valderas] with a gun you could have fired at him
[Mr. Valderas]?” ROA. 1065.

24
C. The Only Logical Inference Is That Sgt.
Billingsley Did Not Fire Because It Was
Unreasonable.
Courts across the country are clear that justification
for lethal force can terminate in seconds. Lytle v. Bexar
County., Tex., 560 F.3d 404 (5th Cir. 2009). In Lytle,
the defendant fired two rounds into plaintiff’s vehicle
during a police chase and killed the plaintiff. Id. The
Fifth Circuit upheld the denial of summary judgment
because whether the threat had been eliminated was in
dispute. Id. at 415. The court held that “an exercise of
force that is reasonable at one moment can become
unreasonable in the next if the justification for the use
of force has ceased.” Id. at 413 (citing Ellis v. Wynalda,
999 F.2d 243, 247 (7th Cir. 1993).) In Ellis, the officer
stated he felt threatened because the suspect was
holding a mesh bag. Id. at 243, 245, 247. The court
found that the defendant would have been justified in
using lethal force in that moment, but not after the
suspect had dropped the bag in question. Id. at 247.
If the analysis of the district court is correct, then
the only logical reason Sgt. Billingsley did not fire is
that Mr. Valderas was fleeing, and the LPD was
trained not to shoot a fleeing felon. ROA. 1032. The
district court gave the following reasons it was
reasonable for Respondent to shoot: 1) Mr. Valderas
had previously fled a police pursuit; 2) Mr. Valderas
was the member of a gang; 3) Police knew Mr. Valderas
was armed; 4) Police had an arrest warrant for Mr.
Valderas; 5) Police had a plan to apprehend Mr.
Valderas without endangering police or the public;
6) Mr. Valderas pulled a gun out of his waistband;

25
7) All officers feared for their safety; 8) All three
officers began “evasive positioning” to avoid being shot;
9) The CI informed Mr. Valderas that the approaching
vehicle was police; 10) The video and testimony confirm
the police identified themselves; 11) Respondent did
not see Mr. Valderas disarm; 12) All three officers were
placed in danger of severe bodily harm or death;
13) Respondent began shooting at almost the same
time as Mr. Valderas turned to run. Pet.App.32, 33.
As Sgt. Billingsley made clear, the LPD will not
shoot a fleeing felon, and that is why he held his fire.
ROA. 1032. Given the district court’s extensive list of
factors, there is no other legitimate reason why Sgt.
Billingsley would not fire his weapon. Accordingly, the
only logical inference is that Sgt. Billingsley observed
Mr. Valderas disarm and knew the threat was
terminated.
II. The Fifth Circuit’s Opinion Sets A Dangerous
and Deadly Precedent.
Permitting police officers to manipulate their
factual accounts to obtain qualified immunity sets a
dangerous precedent. It is undisputed that Respondent
manipulated his sworn testimony, “Mr. Valderas
continued displaying the pistol” after he heard Officer
Merritt’s testimony, which confirmed Mr. Valderas
discarded the gun. ROA. 866. Respondent knew if he
did not remove that portion of his testimony, he would
be admitting that the “display” he saw was Mr.
Valderas discarding the gun. This is dangerous because
nothing currently prevents a police officer from using
lethal force and subsequently manipulating the facts to
obtain qualified immunity.

26
The instant case sets a deadly precedent for citizenpolice encounters because it is unlike many cases in
which an officer mistakes a fact and relies on qualified
immunity. In Hudspeth v. City of Shreveport, an officer
mistook a silver object in a suspect’s hand for a
handgun. Hudspeth v. City of Shreveport, 270 F. App’x
332, 333 (5th Cir. 2008). It turned out to be a cell
phone. Id. In Salazar-Limon, an officer mistakenly
believed the suspect was reaching for a weapon.
Salazar-Limon, 137 S. Ct. at 1278. This Court noted
that the defendant officer was alone, “this is
undeniably a tragic case, but as the dissent notes, post,
at 1282 (opinion of SOTOMAYOR, J.), we have no way
of determining what actually happened in Houston on
the night when Salazar–Limon was shot. All that the
lower courts and this Court can do is to apply the
governing rules in a neutral fashion.” Id. at 1282.
Here, Respondent knew that if he observed Mr.
Valderas continuing to display the pistol, then he
admitted he saw that Mr. Valderas discarded the gun.
So, after the deletion, Respondent inserted the
statement, “I did not ever see Mr. Valderas drop the
weapon” in order to obtain qualified immunity under
Salazar-Limon. ROA. 870. If this Court declines review
in this case, it will set a dangerous and deadly
precedent of allowing police officers to manipulate
material facts to obtain qualified immunity.
As it stands, the law of the Fifth Circuit provides:
“…to the extent that there is any inconsistency
in Officer Mitchell’s testimony, it has no bearing
on the question of whether Officer Mitchell

27
saw or should have seen Valderas discard the
gun.”
Pet.App.12.
This statement by the Fifth Circuit establishes that
whether Respondent observed Mr. Valderas discard the
gun was a material fact. Assuming that Respondent
saw Mr. Valderas discard the gun, the next inquiry
should have been whether a reasonable officer would
have realized that Mr. Valderas discarded the gun. The
Fifth Circuit never applied Graham’s objective
reasonableness test to Sgt. Billingsley’s reaction. For
example, the Fifth Circuit stated:
“the events transpired in a matter of seconds,
leaving Officer Mitchell with little time to
realize that Valderas no longer possessed a gun
before making the decision to open fire.
Considering the totality of the facts and
circumstances, a reasonable officer in Officer
Mitchell’s position would have reasonably
perceived Valderas’s actions to pose an
imminent threat of serious harm at the time the
shots were fired.”
Pet.App.11
In this statement, the Fifth Circuit never mentioned
Sgt. Billingsley; however, Sgt. Billingsley observed the
identical “display” as Respondent. The question of
whether he could “realize” or “perceive” that the threat
was terminated is an inference drawn from Sgt.
Billingsley’s decision not to shoot. Pet.App.11. Allowing
the Fifth Circuit’s precedent to stand is dangerous and
deadly.

28
Fair notice requires this Court to declare police
officers have absolute immunity. Indeed, Mr. Valderas
would never have ran if he knew that police officers
were absolutely immune for their actions. Conversely,
Respondent would never have altered his account if he
knew he enjoyed absolute immunity. While Mr.
Valderas contends that absolute immunity conflicts
with the legislative intent of § 1983, he deserved fair
notice that if he ran, Respondent could use lethal force
with impunity. Pet.App.47. (“Tennessee statute reflects
a legislative determination that the use of deadly force
in prescribed circumstances will serve generally to
protect the public… and provide notice that a lawful
police order to stop and submit to arrest may not be
ignored with impunity.” Tennessee, 471 U.S. at 28
(O’CONNER J., REHNQUIST J., BERGER C.J.,
dissenting).) Accordingly, fair notice obligates this
Court to review the instant case and inform the public.
CONCLUSION
To decline review of this case would authorize police
officers to manipulate their stories to obtain qualified
immunity and would invalidate the courageous
testimony of Officer Merritt. Qualified immunity was
intended to protect
honest officers who make
reasonable mistakes. Graham, 490 U.S. at 396. To
decline review of this case sends a clear message to
honest officers: stay silent; officers are entitled to
absolute immunity.
For the foregoing reasons, the petition for a writ of
certiorari should be granted.

29
Respectfully submitted,
DANIEL A. DAILEY
Counsel of Record
Chief Litigation Counsel
KINGDOM LITIGATORS, INC.
A PUBLIC INTEREST LAW FIRM
3131 McKinney Avenue, Suite 600
Dallas, Texas 75204
Tel: 214-422-9350
E-Mail: ddailey@kingdomlitigators.com
Attorney for Petitioner

